      Department of Homeland Security



            U.S. Customs and Border Protection’s
               Management of the Purchase and
               Storage of Steel in Support of the
                    Secure Border Initiative




OIG-12-05                                       November 2011
                                                             Office ofI//Spec/or General

                                                             U.S. Department or Uomtland Security
                                                             Washington. DC 20528




                                                             Homeland
                                                             Security
                                           NOV 7 - 2011

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one ofa series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the Department.

This report addresses the effectiveness of the U.S. Customs and Border Protection's management
of the purchase and storage of steel in support of the Secure Border Initiative. It is based on
interviews with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust this report
will result in more effective, efficient, and economical operations. We express our appreciation
to all of those who contributed to the preparation of this report.

                                        ~;(~
                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ..................................................................................................................5 


     Project Planning .............................................................................................................5
 


     Project Oversight ...........................................................................................................8 


     Conclusion ...................................................................................................................11 


     Recommendations........................................................................................................12


     Management Comments and OIG Analysis ................................................................12 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................15 

     Appendix B:           Management Comments to the Draft Report .......................................16 

     Appendix C:           Major Contributors to this Report ........................................................22 

     Appendix D:           Report Distribution ..............................................................................23 


Abbreviations
     CBP              U.S. Customs and Border Protection
     CO               contracting officer
     DHS              Department of Homeland Security
     FY               fiscal year
     IBWC             International Boundary and Water Commission
     LOTSS            Long-Term Steel Storage
     IIRIRA           Illegal Immigration Reform and Immigrant Responsibility Act of 1996
     NFC              National Finance Center
     OIG              Office of Inspector General
     SBI              Secure Border Initiative
     SSCM             Supply and Supply Chain Management
     TI               Tactical Infrastructure
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                     The Department of Homeland Security’s Customs and Border Protection
                     uses infrastructure to impede illegal entry into the United States and
                     provide officers access to their areas of operations. Since 2008, Customs
                     and Border Protection has spent approximately $1.2 billion to construct
                     physical barriers along the southwest border as part of the Department’s
                     Secure Border Initiative. About $310 million of the cost was to purchase
                     and store steel in support of fence construction. We performed this audit
                     to determine the effectiveness of Customs and Border Protection’s
                     management of the purchase and storage of steel in support of the Secure
                     Border Initiative.

                     Customs and Border Protection completed 299 miles of fence; however, it
                     did not effectively manage the purchase and storage of steel in support of
                     the Secure Border Initiative. It purchased steel based on an estimate
                     before legally acquiring land or meeting international treaty obligations.
                     In addition, it did not provide effective contract oversight during the
                     project: it paid invoices late, did not reconcile invoices to receiving
                     documents, and did not perform a thorough review of the contractor’s
                     selection of a higher-priced subcontractor or document the reasons for its
                     approval of the subcontractor. As a result, Customs and Border Protection
                     purchased more steel than needed, incurred additional storage costs, paid
                     interest on late payments, and approved a higher-priced subcontractor,
                     resulting in additional expenditures of about $69 million that could have
                     been put to better use.

                     We made five recommendations to improve Customs and Border
                     Protection’s management of future fence construction and contract
                     oversight. Customs and Border Protection concurred with four
                     recommendations, and the Department of Homeland Security proposed an
                     alternative to the fifth recommendation that met the intent of that
                     recommendation. Customs and Border Protection is taking action to
                     implement the recommendations.




         U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in
                                 Support of the Secure Border Initiative 


                                                 Page 1
 

Background
                          Achieving operational control of the U.S. border is one of the key
                          missions of the Department of Homeland Security (DHS), and specifically
                          U.S. Customs and Border Protection (CBP). CBP’s Border Patrol has 20
                          sectors responsible for detecting and preventing illegal entry of aliens into
                          the United States between ports of entry.

                          Section 102 of the Illegal Immigration Reform and Immigrant
                          Responsibility Act of 1996 (IIRIRA) required the Attorney General to
                          construct fencing and road improvements to prevent illegal entry at the
                          border near San Diego, California.1 In November 2005, DHS established
                          the Secure Border Initiative (SBI) to secure the Nation’s borders and
                          reduce illegal immigration. DHS tasked CBP as the executive agent for
                          the SBI program. CBP’s SBI Program Management Office was
                          responsible for developing and constructing a comprehensive border
                          protection system using a combination of technology, known as SBInet,
                          and physical barriers, known as Tactical Infrastructure (TI). TI consists of
                          roads, lighting, drainage improvements, bridges, and fencing to impede
                          illegal entry into the United States and provide officers access to their
                          areas of operations.

                          Congress amended Section 102(b) of the IIRIRA with the Secure Fence
                          Act of 2006, requiring reinforced fence construction and accompanying
                          physical barriers in priority areas along the southwest border in California,
                          Texas, New Mexico, and Arizona. In September 2006, DHS awarded a 3­
                          year indefinite delivery/indefinite quantity contract to a prime contractor.
                          The contractor was responsible for acquiring, deploying, and maintaining
                          SBI technology while providing supply chain management for TI projects.
                          The contractor was also responsible for selecting and managing a team of
                          subcontractors to support the project.

                          In December 2007, the Consolidated Appropriations Act of 2008 further
                          amended Section 102(b) of the IIRIRA to require DHS to construct not
                          less than 700 miles of reinforced fencing along the southwest border
                          “where fencing would be most practical and effective.” In carrying out
                          that mandate, the Secretary was required to identify and build 370 miles
                          “or other mileage” of priority fencing on the southwest border by
                          December 31, 2008. In January 2008, CBP awarded the Supply and
                          Supply Chain Management (SSCM) task order to a prime contractor for
                          the purchase and storage of steel to support fence construction. The
1
  The Homeland Security Act of 2002, as amended, transferred many authorities of the Attorney General to DHS.
Section 564 of the Consolidated Appropriations Act of 2008, however, amended section 102 of the IIRIRA to
replace “Attorney General, in consultation with the Commissioner of Immigration and Naturalization” with
“Secretary of Homeland Security.”

              U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                                     Support of the Secure Border Initiative 


                                                      Page 2

                          SSCM task order consisted of three contracts for the purchase of steel,
                          mesh, and storage. Since fiscal year (FY) 2008, CBP has spent about
                          $310 million to purchase and store steel in support of fence construction.
                          During the performance of the SSCM task order, the contractor stored and
                          distributed the steel from three locations: El Paso, Texas; Houston, Texas;
                          and Lynwood, California. CBP consolidated the remaining steel at the
                          end of the project to the El Paso, Texas, facility.

                          Between the enactment of the Secure Fence Act of 2006 and the time of
                          our review, CBP completed nearly 299 miles of fencing at a cost of $1.2
                          billion.2 To date, CBP has constructed about 650 miles of fencing along
                          the southwest border, including the miles constructed using the steel from
                          the SSCM task order. Table 1 illustrates the fence miles from the SSCM
                          task order and the total miles of fencing along the southwest border as of
                          March 2011. Table 2 illustrates the total estimated cost for fence
                          constructed under the SSCM task order. Figure 1 illustrates some of the
                          pedestrian and vehicle fence designs.


                          Table 1. SSCM Task Order Miles and Total Miles Along the
                          Southwest Border as of March 2011*

                              Fence Type          Miles Built           Total Miles of Fencing
                                                  From SSCM
                                                   Task Order
                            Pedestrian                   150.57                   351.79
                            Vehicle                      147.98                   298.85
                            Total                        298.55                   650.64
                            * Figures include approximately 2.35 planned miles that were still under
                            construction as of March 2011.




2
 According to CBP, the cost per mile includes commercial construction, supply chain and planning oversight,
environmental compliance and cultural mitigation, program management, design, and real estate planning and
acquisition.

              U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                                     Support of the Secure Border Initiative 


                                                      Page 3

              Table 2. Average Cost per Mile and Associated Totals of
              Fence Constructed Under the SSCM Task Order

               Fence Type        Miles Built         Average            Total Cost
                                 From SSCM           Cost Per
                                  Task Order           Mile
              Pedestrian               150.57       $6,500,000         $978,705,000
              Vehicle                  147.98       $1,800,000         $266,364,000
              Total                    298.55                        $1,245,069,000


            Figure 1. Examples of Southwest Border Fence Designs




                                           Pedestrian Fencing




                                               Vehicle Fencing
              Images Courtesy of CBP




U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                       Support of the Secure Border Initiative 


                                        Page 4
 

Results of Audit
        CBP did not effectively manage the steel and storage purchased under the SSCM task
        order. It purchased steel based on an estimate before legally acquiring land and meeting
        international treaty obligations. CBP did not provide effective contract oversight during
        the project, as demonstrated by paying invoices late and by not reconciling invoices to
        receiving documents. In addition, it did not perform a thorough review of the consent to
        subcontract and did not document the reasons for its approval of the higher-priced
        subcontractor. As a result, CBP purchased more steel than needed, incurred additional
        storage costs, paid interest on late payments, and approved a higher-priced subcontractor.
        The insufficient planning and inadequate contract oversight led to additional expenditures
        of about $69 million that CBP could have put to better use.

        Project Planning
                 CBP did not efficiently plan the purchase and storage of steel for the SSCM task
                 order. It purchased steel based on an estimate of types of fence per mile. As a
                 result, 27,557 tons of extra steel, with a value of about $44 million, remained in
                 storage at the end of the task order. Further, CBP incurred $9.8 million in
                 additional storage costs because it did not move the remaining steel to a
                 government facility for more than 2 years after the original storage contract
                 expired.

                          Steel Purchased for the SSCM Task Order

                          CBP purchased steel based on an estimate of types of fence per mile. In
                          March 2008, CBP instructed the prime contractor to purchase
                          approximately 145,000 tons3 of steel before finalizing fence designs.
                          According to CBP, at that time it did not have access to all the land where it
                          would build the fence and therefore could not properly plan the project or
                          determine the appropriate fence design for all the planned miles. Because
                          CBP did not have access to all the land, it based the initial purchase on an
                          estimate completed in December 2007. CBP attributed the decision to
                          purchase the steel in bulk to the December 31, 2008, deadline, an agreement
                          with the supplier to purchase the steel at January 2008 prices, and
                          production times for steel.

                          Additionally, CBP did not obtain necessary approval to build all planned
                          fence segments before acquiring the steel. CBP was aware that it might be
                          required to build new fence along the southwest border. To address this
                          possibility, CBP performed multiple environmental assessments in areas
                          where it might be required to build. In 2007, CBP performed an

3
 According to CBP, the quantity of steel purchased included a 10% allowance for unanticipated design changes; it
did not intend for the additional steel to be excess at the end of the contract.

              U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                                     Support of the Secure Border Initiative 


                                                      Page 5

            environmental assessment and determined that a permanent fence would
            result in adverse affects to the flood plain and recommended building a
            movable fence. Despite this recommendation, the steel that CBP
            purchased was of a type to build a permanent fence. CBP purchased
            approximately 11,300 tons, or $20.5 million worth of steel to build 14
            miles of permanent fence along the Rio Grande Valley. However, CBP
            did not meet the International Boundary Water Commission’s (IBWC)
            criteria for a fence type that would minimize effects of water flow on the
            flood plain. CBP consulted with the IBWC between 2008 and 2010 to
            find a solution to the impact on the flood plain. The IBWC denied support
            of CBP’s proposal of permanent fence in this area because of the potential
            adverse impacts to the flood plain. According to CBP, it did not construct
            a movable fence in this area because of high cost.

            CBP indicated that the bulk purchase saved the government approximately
            $72 million based on the price per ton increase of raw steel from $550 in
            January 2008 to $1,060 in August 2008. Although the cost of raw steel
            did almost double in price, we were not able to validate CBP’s reported
            cost savings. CBP computed the savings using raw steel prices rather than
            the manufactured purchase price. CBP paid $1,655 per ton for most
            (84%) of the steel rather than the $550 per ton used in its cost-savings
            analysis. In addition, CBP used the total amount of steel purchased (about
            145,000 tons) in the calculation, instead of the amount needed
            (approximately 117,000 tons) to build about 299 miles of fence.

            Additional Purchase of Steel

            In September 2009, CBP purchased 34 tons of steel for $23,000, even
            though it had significant quantities of the same steel already in storage.
            According to CBP, the subcontractor offered CBP the steel at a reduced
            price, and CBP determined that it would need it in the future. Table 3
            illustrates the quantities in storage prior to the purchase of additional steel.


            Table 3. Breakdown of Additional Steel Purchase
                  Length of Steel        Purchase          Weight          Pieces           Weight
                                         (Pieces)          (Tons)         Already in        (Tons)
                                                                           Storage
                       21 foot                      159             25        24,142          3,683
                       20 foot                       51              7        35,033          5,091
                       25 foot                       12              2        12,090          2,196
                        Total                       222             34        71,265         10,970




U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                       Support of the Secure Border Initiative 


                                        Page 6
 

            Storage of Extra Steel

            CBP was not proactive and did not efficiently plan for the storage of steel
            remaining from the SSCM task order. Instead of moving the extra steel to
            a cost-efficient location, CBP extended the original contract and awarded
            a supplemental storage contract. CBP’s decision to extend the storage
            contracts for 2 years resulted in $9.8 million in avoidable storage costs.

            The original storage contract for the SSCM task order covered the period
            from April to December 2008. During this period, CBP was aware that it
            would have at least 24,000 tons of remaining steel but did not begin to
            identify possible government-owned storage facilities until August 2009.
            CBP made multiple revisions to the storage contract until it found a new
            storage site. The revisions extended the original storage contract 15
            months, from January 2009 to March 2010, at a cost of about $5.6 million.

            In April 2010, CBP awarded a 1-year task order, Long-Term Steel Storage
            (LOTSS), under the SSCM task order for storing the steel through March
            2011 for $4.1 million. A CBP legal review, cost/price, and technical
            evaluations of the LOTSS task order determined that the proposed amount
            for the LOTSS task order was unrealistically high and recommended that
            CBP include a memorandum in the contract file to explain why it accepted
            the cost/price proposal and the technical proposal. However, CBP awarded
            the LOTSS task order for $4.1 million without including the memorandum
            or justifying the high cost. According to CBP, the legal review
            recommendation to justify the cost was only a suggestion and the
            contracting office chose not to accept it.

            In July 2010, almost 1 year after it began researching cost-effective storage
            locations, CBP identified a suitable site. In January 2011, CBP paid
            approximately $1 million to prepare the new site and estimated about
            $780,000 to transport the steel to the new facility. At the time of our
            review, CBP was in the process of moving the remaining steel to the new
            site. Table 4 illustrates additional storage costs CBP incurred because of its
            delay in finding a cost-effective site.


            Table 4. Storage Costs Between January 2009 and March 2011

                                  Task Order                                                 Amount
              SSCM Task Order Revision (January 2009–June 2009)                             $4,250,000
              SSCM Task Order Revision (July 2009–December 2009)                              $908,385
              SSCM Task Order Extension (January 2010–March 2010)                             $427,244
              LOTSS Task Order (April 2010–March 2011)                                      $4,167,381
              Total                                                                         $9,753,010

U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                       Support of the Secure Border Initiative 


                                        Page 7
 

               CBP said that it will use the remaining steel to maintain and repair the
               existing fence and has already used some of it for these projects. In January
               2011, CBP transported approximately 500 tons of steel to two areas along
               the southwest border to replace damaged fencing. CBP also indicated that if
               required to build additional fence, it would use the extra steel for future
               construction projects. To ensure that future large-scale projects are as
               efficient as possible, CBP should analyze its performance under the SSCM
               task order and apply lessons learned to future projects.

Project Oversight
      CBP did not provide effective oversight during the SSCM task order. CBP
      increased the cost of the SSCM task order because it paid invoices late. In
      addition, it did not reconcile invoices and did not perform a thorough review of
      the consent to subcontract documentation. As a result, CBP incurred late payment
      interest charges and could not guarantee that the government received what it paid
      for under the task order. In addition, CBP approved a subcontractor that may
      have added about $13.5 million to the project.

               Interest Payments

               CBP increased the cost of the SSCM task order because it paid invoices
               after the due date. The contractor submitted 28 invoices over the duration
               of the task order. Our review of the invoices showed that CBP paid 7
               (25%) of 28 invoices late under the SSCM task order contract payment
               terms. Late payments occurred because CBP entered the contract into the
               system incorrectly, did not have policies in place for submitting and
               reviewing invoices, and did not establish a notification process to remind
               offices of an invoice coming due. Additionally, CBP applied “net 21” as
               payment terms rather than the standard “net 30” terms. As a result, CBP
               paid approximately $282,000 of interest during the SSCM task order.
               Table 5 lists the seven invoices that accrued interest.




   U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                          Support of the Secure Border Initiative 


                                           Page 8
 

            Table 5. Contractor Invoices That Accrued Interest*
                 Invoice            Due Date                    Payment Date       Days     Interest
                            (interest starts the day after)                        Late       Paid
                   1                 June 21, 2008               August 26, 2008       65    $29,819
                   2                August 8, 2008               August 26, 2008       17    $44,915
                   3               August 23, 2008               August 26, 2008        2      $5,257
                   4               August 28, 2008             September 5, 2008        7    $61,718
                   5            September 14, 2008            September 26, 2008       11    $55,213
                   9            November 13, 2008             November 26, 2008        12    $48,241
                  11**          December 16, 2008             December 29, 2008        12    $36,465
                  Total                                                                     $281,628
            *The National Finance Center (NFC) calculated the interest from the day after the due
            date through the payment date using rates of 4.75% (January 2008–June 2008) and
            5.125% (July 2008–December 2008). The U.S. Department of the Treasury determined
            the applicable interest rates

            **CBP made two interest payments for invoice #11 for $36,465; one payment of
            $19,752 and the second payment was $16,713. Our review determined the second
            payment was a duplicate. CBP was aware of the duplicate payment and as of July
            2011, it had not recovered the duplicate payment. Without the duplicate payment, the
            total interest paid would have been about $265,000.

            CBP did not have policies and procedures for submitting and reviewing
            invoices. It also did not have clear guidance on the proper office to route
            invoices to, or timelines for the review process. In addition, CBP did not
            have a notification process to remind offices of an invoice coming due.

            CBP applied accelerated payment terms to the SSCM task order.
            According to Title 5 of the Code of Federal Regulations
            §1315.14(c)(1)(iii) and CBP operating procedures, the standard payment
            terms for supplies and services are 30 days after receipt of an invoice, or
            “net 30.” However, CBP agreed to payment terms of 21 days after the
            receipt of an invoice, or “net 21.” According to CBP, the accelerated
            payment was an incentive for the contractor to produce expedited delivery
            schedules. However, as of April 2011, CBP personnel had not provided
            documents to support this statement. If CBP had applied the standard net
            30 payment terms instead of net 21, it would have avoided approximately
            $178,000 (63%) of accrued interest payments. Table 6 illustrates the
            amount of interest that CBP would have saved if it had applied the
            standard payment terms.

            In March 2009, after CBP paid 98% of the contract, it modified the
            contract to adjust the payment terms to net 30.


U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                       Support of the Secure Border Initiative 


                                            Page 9

            Table 6. Interest Savings Using the Standard Payment Terms

                 Invoice        Interest Paid      Interest Paid if      Savings
                 Number         when Net 21         Net 30 Terms
                               Terms Applied           Applied
                   4                   $61,718                    $0       $61,718
                   5                   $55,213               $9,202        $46,011
                   9                   $48,241              $10,338        $37,903
                   11                  $36,465               $4,558        $31,907
                  Total              $201,637               $24,098       $177,539

            Invoice Reconciliation

            The Contracting Office did not reconcile invoices to receiving
            documentation. The National Finance Center (NFC) is responsible for
            ensuring proper expenditure of appropriated funds for CBP. The invoice
            packet that the NFC received included a contracting officer’s (CO)
            technical representative acceptance letter and a contracting specialist’s
            checklist indicating approval for payment. The invoice packets did not
            contain supporting documentation for goods received. According to the
            Contracting Office, it relied on verbal confirmation from the program
            manager that the invoice amounts were accurate. As a result, CBP cannot
            guarantee that the government received the accurate amount of steel for
            which it paid the contractor.

            Consent to Subcontract

            CBP did not perform a thorough review of the consent to subcontract
            documentation and did not document the reasons for its approval of the
            higher-price subcontractor. The Federal Acquisition Regulation states that
            if an approved purchasing system exists, COs may include a Consent to
            Subcontract clause in the contract if additional oversight is necessary
            because of the subcontract type, complexity, or value. The clause allows
            COs to determine whether contractors obtained adequate price competition
            and have a sound basis for deciding to select subcontractors. Although the
            contractor had an approved purchasing system, CBP required the contractor
            to obtain its written consent for subcontracts under the SSCM task order.

            According to CBP, it intended to provide additional oversight of the
            selection of a subcontractor by participating, as a nonvoting member, in
            the contractor Source Selection Board meeting. CBP did not request
            documentation to support the contractor’s decision to select the higher-
            priced bidder. For example, the contractor’s price proposal showed an
            adjustment to the system-selected bidder by 5% to account for additional

U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                       Support of the Secure Border Initiative 


                                        Page 10

               transportation costs. However, CBP did not request an explanation or
               review the adjustment. A review of supporting documentation would have
               determined that the contractor did not adequately document its decision to
               select the higher-priced bidder or justify the perceived benefits associated
               with the additional costs. It also would have determined that the contractor
               did not consistently follow the stated evaluation criteria in its request for
               proposals. Additionally, the consent to subcontract documentation did not
               show that the automated purchasing system selected a lower bidder as the
               recommended vendor, and the contractor did not document its reason for
               overriding the system’s selection. CBP did not request documentation to
               support the contractor’s decision and did not justify the contractor’s
               selection. CBP’s lack of oversight may have increased the SSCM task
               order by the adjusted difference in bids of $13.5 million.

               Actions Taken by DHS

               DHS’s Office of the Chief Procurement Officer recognized the importance
               of component oversight of subcontractor selection and issued an
               acquisition alert in April 2011 to DHS heads of contracting activities. The
               purpose of the alert was to emphasize the responsibilities and
               considerations of a CO when evaluating prime contractors’ source
               selection decisions. According to the alert, COs must review a
               contractor’s notification and supporting data to ensure that the proposed
               subcontract is appropriate for the risks involved and consistent with
               current policy and sound business judgment. At a minimum, the alert
               required COs to review all contractor requests for subcontract consent.
               These reviews must consider, among other things, whether the contractor
               performed adequate cost or price analysis or price comparisons.

Conclusion
      CBP did not efficiently plan for the purchase and storage of steel in support of the
      SBI. CBP purchased the steel based on an estimate before legally acquiring land
      or meeting international treaty obligations. In addition, CBP did not provide
      effective oversight during the project because it made late payments, did not
      reconcile invoices, and did not perform a thorough review of the consent to
      subcontract before approving the selected subcontractor. CBP needs to ensure
      that it applies lessons learned from the SBI project to future projects. The
      insufficient planning prior to the purchase of steel and the inadequate oversight of
      the SSCM led to the purchase of extra steel, additional storage costs, interest paid
      on late payments, and approval of a higher-priced subcontractor. As a result, CBP
      spent about $69 million that it could have put to better use.




   U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                          Support of the Secure Border Initiative 


                                           Page 11
 

   Recommendations
            We recommend that the Assistant Commissioner of the Office of
            Administration:

            Recommendation #1: Continue to relocate extra steel in storage to a
            more cost effective site.

            Recommendation #2: Perform a lessons learned analysis of the SSCM
            task order and apply the results to future projects.

            Recommendation #3: Develop and communicate policies and procedures
            for reconciling invoices.

            Recommendation #4: Develop a reminder notification process to warn
            appropriate offices that invoices are due.

            Recommendation #5: Require contractors to inform the contracting
            officer if they override the automated purchasing system.

   Management Comments and OIG Analysis
            We obtained written comments on the draft report from CBP’s Assistant
            Commissioner, Office of Internal Affairs. We reviewed the comments
            and, where appropriate, made changes to the report. According to its
            response to the draft report, CBP did not agree with the report’s
            conclusions. According to CBP, the report did not acknowledge the
            context in which CBP made many of its business decisions related to the
            purchase and storage of steel, contract oversight, and subcontractor
            selection. We recognize the constraints placed on CBP by The Secure
            Fence Act of 2006, but we maintain that if CBP had ensured that it legally
            acquired the land and met international treaty obligations before it
            purchased the steel, it would have reduced the cost to purchase and store
            the steel.

            CBP agreed that it made late payments, but stated that our finding did not
            reflect corrective actions it took before late payments became a systemic
            issue. We recognize that there were no additional interest payments after
            invoice #11 related to the SSCM task order. However, CBP did not
            provide a copy of the corrective action plan it said it developed and
            implemented. OIG further maintains that the Contracting Office did not
            reconcile invoices to receiving documentation because the invoices it
            received did not contain sufficient detailed information to perform those
            reconciliations.


U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                       Support of the Secure Border Initiative 


                                        Page 12

            We also recognize that CBP intended to provide additional oversight of
            the selection of a subcontractor by its appointment of a representative.
            The CBP representative participated as a nonvoting member in the
            contractor Source Selection Board meeting but did not request
            documentation to support the contractor’s decision to select a higher-
            priced bidder. We believe that CBP needs to improve its processes and
            develop plans in anticipation of further construction of the fence along the
            border.

            We included a copy of the management comments in their entirety in
            appendix B. The following is an evaluation of CBP’s official response.

            Management Response on Recommendation #1

            CBP concurred with the recommendation and stated that it relocated the
            remaining steel inventory to a government-owned site in Fabens, Texas,
            on March 31, 2011.

            OIG Analysis: We consider CBP’s actions responsive and consider the
            recommendation resolved. However, it will remain open until CBP
            provides additional documentation. The DD 1149 CBP provided does not
            contain sufficient detail, and the additional inventory data did not account
            for the remaining steel. The recommendation will remain open until CBP
            provides a reconciled inventory of the remaining steel at the new
            government-owned site.

            Management Response on Recommendation #2

            CBP concurred with the recommendation. CBP’s Facilities Management
            & Engineering will coordinate with the U.S. Army Corps of Engineers and
            other internal stakeholders in a lessons learned session. The results of this
            session will include a lessons learned document that CBP will provide to
            OIG.

            OIG Analysis: We consider CBP’s actions responsive to the
            recommendation and consider the recommendation resolved. However, it
            will remain open until CBP provides the lessons learned document.

            Management Response on Recommendation #3

            CBP concurred with the recommendation and will develop and
            communicate policies and procedures for reconciling invoices. CBP’s
            Procurement Directorate is in the process of establishing and aligning
            invoice approval procedures based on lessons learned, a recent


U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                       Support of the Secure Border Initiative 


                                        Page 13

            reorganization, and the need to manage prescribed timelines to avoid late
            payment interest penalties.

            OIG Analysis: We consider CBP’s actions responsive to the
            recommendation and consider the recommendation resolved. However, it
            will remain open until CBP provides invoice policies and procedures.

            Management Response on Recommendation #4

            CBP concurred with the recommendation. CBP’s Financial Management
            Office will determine if its financial system can be programmed to send
            reminder notices regarding invoice payment due dates. If the system can
            be programmed to do so, CBP will include the notification process in the
            invoice procedures currently being developed.

            OIG Analysis: We consider CBP’s actions responsive to the
            recommendation and consider the recommendation resolved. However, it
            will remain open until CBP provides documentation that a reminder
            notification process is in place, whether the financial system can be
            programmed or not.

            Management Response on Recommendation #5

            CBP did not concur with the recommendation because it requires
            contractors to inform the CO if they override the automated purchasing
            system, which involves a change to the regulations. DHS proposed an
            alternative recommendation: Emphasize the importance of the contracting
            officer’s responsibility to adequately review a consent request and
            supporting data, including the contractor’s cost or price analysis of
            subcontracts.

            OIG Analysis: Although CBP did not concur with the recommendation,
            DHS’s alternative recommendation meets the intent to provide additional
            oversight to ensure that government representatives mitigate risk to the
            government in the subcontractor selection process. We consider this
            recommendation resolved, but it will remain open until CBP provides
            documentation on the steps it is taking to implement the Department’s
            guidance on the importance of the CO’s responsibility.




U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                       Support of the Secure Border Initiative 


                                        Page 14
 

Appendix A
Purpose, Scope and Methodology

                      This report provides the results of our work to determine the effectiveness
                      of CBP’s management and oversight over the purchase and storage of
                      steel used for SBI. To achieve our objectives, we—

                               Reviewed the contract documentation for the SSCM task order and
                               the LOTSS task order applicable to the purchase and storage of
                               steel;

                               Interviewed CBP headquarters officials; CBP COs in Arlington,
                               Virginia, regarding the steel purchase contract; CBP Budget Office
                               officials in Indianapolis, Indiana; and Defense Contract Audit
                               Agency and Defense Contract Management Agency officials in
                               Huntsville, Alabama;

                               Reviewed invoices that the contractor submitted to determine
                               whether the invoices were complete and had accrued interest;

                               Reviewed Environmental Impact Statements for areas where CBP
                               planned to build TI;

                               Reviewed CBP inventory records for the extra steel;

                               Reviewed design changes related to the SSCM task order;

                               Reviewed policies and procedures, including the Federal
                               Acquisition Regulation, DHS Acquisition Manual, and CBP
                               Directives; and

                               Reviewed prior audit reports regarding SBI and TI.

                      We conducted this performance audit between October 2010 and April
                      2011 pursuant to the Inspector General Act of 1978, as amended, and
                      according to generally accepted government auditing standards. Those
                      standards require that we plan and perform the audit to obtain sufficient,
                      appropriate evidence to provide a reasonable basis for our findings and
                      conclusions based upon our audit objectives. We believe that the evidence
                      obtained provides a reasonable basis for our findings and conclusions
                      based upon our audit objectives.




          U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                                 Support of the Secure Border Initiative 


                                                  Page 15
 

Appendix B
Management Comments to the Draft Report

                                                                           July 29, 2011



MEMORANDUM FOR CHARLES K.. EDWARDS
               ACIlNG INSPECfOR GENERAL
               DEPARTMEl'fT-OF HOMElAt'ID SECURITY

FROM:                    Assistant Qnnmissioner­
                         Office of Internal Affairs

SUBJECT:                 u.s. Customs and Border Protection's Response to the Office of Inspector
                         General's Draft Report Entitled, "U.S. Customs and Border ProlCClion's
                         Management of the Purchase and StorugeofSteel in Support oCthe Secure
                         Border Initiative"                      .

Thank you for the opportunity to review and offer commenls on the Department ofHomeland Security
(DRS) Office of the Inspector General (OIG) draft report entitled ·'U.S. Customs and Border
Protection's Management of the Purchase and Stomge ofStocl in Support of the Secme Border
lnitiative," dated June 20, 2011. U.S. Customs and Border Protection (CDP) has reviewed the draft
report and takes exception with several findings and conclusions in the report given they are nOI
supported by program or procurement documentation. While we agree that the program incurred
unanticipated costs, we markedlyOisagree with the amount of these costs and the reasons why they
were incurred. In short, of the $69 million questioned in the repol;1, we agree that approximately
$282,000 in unanticipated costs wen: attributable to cuors in wing CBP's accounting system 10
properly process invoices and track steel as an asset. CBP immediately responded to these early
challenges, c:orrecting them within 60 calendar days, resulting in DO late payments thet"c:after-. The
balance of the costs discussed in the draft report WQ"C not program overruns. or funds spent unwisely
as we briefly discussed here.

1be OIG made five recommendations in its draft report. CBP concun with Recommendations 1i1.1f2.
N3, and #4 and does DOt coocur with Reconuneodations #5.

Pro1te! Planning

In general., CBP wholly disagrees with the report's conclusion that $44 million in excess steel was
purchased as a result of poor management practices. While CBP does continue to maintain an
inventory ofstruetural stocl we find that the report fails to admowledge the context in which CBP
made many ofits business decisions related to the purchase of stee~ for example:

    •   The report fails to oonsider the constraints placed on the agency by the The Secure Fence Act
        0[2006, as amended, that required CBP to deploy 670 miles oftaetical iofrastmcture within
        ani 8-month timeframe.




              U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in
                                     Support of the Secure Border Initiative 


                                                      Page 16
 

Appendix B
Management Comments to the Draft Report

                                                     2

     •   Prior to launching full scale procu.mnent and oonstruetioo activities CBP did, in fact, use
         ICS90TlS learned from initial small fr:ncc: construction projects to plan the full deployment.
         These early projects, like PF-70. demonstrated availability orand oompetilion for materials
         within the construction industry - including structural steel- that played a significant role in
         the successful, timely, and cost effective execution of the fence program.

     •   Project plllIlnins: was quite thorough in the context oflhc deadline for fence construction
         completion. Specifically, the "fence toolbox" which included detailed and tested fence designs
         was finalized and completed in December 2007 before steel was ordered. This plWl.lling work
         provided a soWld estimating tool for detailing what CBP's steel requirements would be.

     •   As one of the largest materiel requirements of the program, structural steel production and
         timely delivCl)' was critical to avoiding widespread oonstruction delays dming program
         Cltccution. 1bc time required for both fence construction and the receipt of manufactured steel
         materials required CBP to place its steel order in early in Fiscal Year (FY) 2008. Further,
         estimated savings of$72.4 million \VaS aclrieved by using this acquisition strategy.

    •    1be rem.aini..ng stnlCtUta1 steel not used for work-related to The Set:ure Fence Act is being used
         for maintenance and some new construction work.. The principal advantage to CBP bere is
         that the steel used for maintenance activities is the same production quality and has the same
         finish as currently installed fencing.

Further, the report also states that CBP proceeded with the ordering of steel prior to "obtaining
necessary construction approval." However, as CBP's Office of Chief Counsel explained during the
audit engagement, Pumulllt to Section 102(a) ofthe Illegalimmigration Reform and Immigrant
Responsibility Act 0/1996, as originally enacted and as it currently reads, the Secretary of Homeland
Security has long hlUl. the approval and authority from Congress to construct physical barriers and
roads in the vicinity ofthe border in areas of high iUegal entry. Moreover, beginning in FY 2007,
Congress began appropriating significant money to CBP, via the Border Security, Fencing,
lnftastructure and Tcclmology (BSFIl) appropriation. for the construction oftactical infrastrucrure as
well as the installation of border seauity technology. A3 such, CBP did in fact. possess the authority 10
constroct border fencing when the Supply and Supply Chain Management (SSCM) task order was
awarded in January 2008. While the program did manage through several delays. they were related to
the legal process for land acquisition, and ensuring that the United States complied with the
requirements of certain treaties with Mexico and not poor program execution or planning.

Project Oversigbt

CBP takes exception to the following statement used throughout the DIG report: "CBP did Dot provide
effec1ive oversight." This statement is found in the Executive Summary, Results of Audit, Project
Oversight and Conclusion sections of the DIG report. This statement as written in the report are based
on OlG's findings: (1) that invoices were paid late; (2) nOI reconciling iovoices to receiving reports;
and (3) not having visibility into the subcontractor selection process.

First, CBP agrees that in fact late paymeots were made, bUI this finding does nOI reflc:et the fact thai
com:ct:ive actions were taken before late payments became a systemic issue. CBP agrees that the
program incurred unanticipated. costs; however, CBP disagrees with the causes oftbose costs as
described in the draft report. The unanticipated costs wct'c more ac:curatcly atmbuted to systemic




               U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                                      Support of the Secure Border Initiative 


                                                         Page 17
 

  Appendix B
  Management Comments to the Draft Report
                                                     3

errors and problems in implementing the payment system at the very beginning ofllie program. In
response to these early problems, the program developed and implemented an action plan and
R:OOvc:n:d. There were 00 late paymCIllS afta anrccting the early acc:ounting and invoice problems.

Second, cap used extensive documentation to reconcile invoices. This documentarion consisted of
SSCM Financial Status Report (Funds and Manhour Expenditure Report). Task Execution Plan (labor
& materials); Ind Steel Mesh Weekly Status which were provided to OIG during the audit.

Third, CBP had extensive visibility into the contractor's subcontractor selection process. This
subcontract was awarded with both CSP's concurrence and participation in the source selection
process. The report inaccurately concludes that the selection of the subconuaetor led to additional
costs (SI3.5M) over a lower price offeror. The subcontract was awarded as a ''best value"
procurement and price alone was nollhe detc:nnining faacr. It is entirely appropriate for the
govemme:ot and contractor to use "best valuc" procedmes in determining award of contracts or
suboontmcts when the situation wamnts as presmbed in FAR Part 15.100. In addition, CBP disagrees
with the implications that significant savinp aodIor cost avoidances would have been ac:bievcd by the
selection ofme lowest bidder. The "best value" trade-off selection significantlyreduccd pc:rfonnance
risk facing the program. The program managers were faced with the urgency to get the program
started as soon as possible and the need to obtain large quantities of steel within significant time
constraints. As a result, the selection of the subcontractor with a proven record to delivCl" the required
large quantities of steel under tight time constraints was made in accordance to the "best value"
criterion instead of a "lowest cosf'. CBP considers that the contractor made a valid management
decision.

With regard 10 "Consent to Subcontract," the DHS Office of the Chief Procurement Officer (OCPO)
and CBP believe that this section, as currently written, is inaccurate and should either (8) be deleted in
its entirety, or (b) be rewritten based on our collUI1ents that follow. The draft repon incorrectly asserts
that CBP did not have visibility into the prime contractor's subcontractor selection process. The draft
report furthc- inaccurately asserts thai the contractor did not notify CBP that it selected a vendor that
was $13.5 million more than the vendor cboSOl by its automaled purchasing syslem. However,
supporting docwnents show that CBP was fully awan: oflhe initial price diffCl"eDCe ($29 million) at the
time ofthe source selection decision as well as the difference after the transportation adjustment (S 13.5
million).

1be record shows that the CBP contraeting personnel were closely involved in the prime contractor's
source selection process and were fully aware of the price differences. 1be CBP Supervisory Contract
Specialist panicipated as a non-voting member in the Source Selection Board meeting where the
source selection process was discussed in detail and the best value decision was made. The slide
presentation of this meeting was submitted as part ofthe consent request. In addition, CBP
documented that it obtained and reviewed the source selection documents and approved the prime
contractor's requcst for consent to subcontract,. as required under FAR 44.202.

With regard to the contractor overriding their automated procurement system, our review found that
due to technical limitations, the automated template could not effectively be used for determining the
best value supplier for SSCM. For example, the template did not penni! input of sub-faClors used in
the source seloetioD evaluation for SSCM. Thus, we believe that the override wasjUSlified­
therefore,. we recommend deleting this assertion from the final report.




                 U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                                        Support of the Secure Border Initiative 


                                                          Page 18
 

   Appendix B
   Management Comments to the Draft Report
                                                     4

However, we recognize that this subcontract review included some deficiencies. We believe the
contractor failed to adequately document their source selection decision to select the higher-priced
bidd«, includingjustifying the pereeived benefits associated with additional costs; and (2) the
oonlrnetor, in its evaluation oCthe proposals, failed to consistently foUow the stated evaluation criteria
in its request for proposal (RFP). We also accept that CBP should have performed a more oomplete
review of the supporting data and documented the reasons for eBP's approval oftbe higher-price
subcontractor. To correct this problem moving forward, the DHS OCPO issued an acquisition alert to
all contracting personnel emphasizing the need to perfonn adequate subcontract reviews. as discussed
in the paragraph that follows.

DHS's OCPO recognized the importance of component oversight ofsubcontractor selection and issued
an acquisition alert in April 2011 to DHS heads of contracting activities. 1bc: purpose of the alert was
to emphasize the responsibilities and considenttions of a CO when evaluating prime COnlmctors'
source selection decisions. According to the alc:n,. COs must review a contnlClors DOtification and
supporting data to ensure that the proposed subcontract is appropriate for the risks involved and
oonsistC:llt with current policy and sound business judgmcot. At a minimwn, the alert required COs to
review all contractor requests for subcontract consent. These reviews must consider, among other
things., whether the contrnctor peri"onned adequ.atc: cost or price analysis or price comparisons. lbis
alert adequately addresses the deficiency found during the review.

Conclusion and Recommendadons

CBP believes that the report's conclusion should be rewriuen based on the general and detailed
technical comments provided herein. Specifically, in thercport's conclusion, CBP recommends
replacing "$69 million" with "$282,000" based solely on the payment of prompt payment interest.
The OIG's fivercoommendations and CBP's actions to address them are described below.

Recommendation #1: Continue to relocate extra steel in storage to a more cost effective site.

CBP Response: Coocur. CBP addressed this finding independently in March 2011. CBP relocated
the remaining stt:d inventory to a governroent-owned site in Fabens, Texas. This activity was
completed on Man::h 31, 2011. Fonns Do..l 149, anached, substantiate completion of this action. CBP
respectfully requests that the OIG close this recommendation.

Due Date: Complete.

Recommendation #2: Perform a lcssowleamed analysis of the Supply and SupplyCbain
Management task order and apply the results to future projects.

CDP Response:     Concur. CBP's Facilities Management & Engineering (FM&E) will engage in a
lessons learned session that will include both internal stakeholders and representatives from the u.S.
Army Corps of Engineers who were involved in the execution of the PF 225 and \IF 300 programs for
which the steel was purchased. The outputs ofthis lessons learned session will include a lessons
leamed document that will be shared with the OIG to close this recommendation.

Due Date: OCtober31,20l1




                  U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                                         Support of the Secure Border Initiative 


                                                          Page 19
 

   Appendix B
   Management Comments to the Draft Report
                                                     5

 Rtglmmendation #3: Develop and communicate policies and procedures for reconciling invoices.

 CBP Response: Concur. CBP will develop and communicate policies and procedures for reconciling
 invoices. CBP is in the proc:e:ss ofresolving a related recommendation foUDd in the GAO 11-68
 "SECURE BORDER INITIATIVE: Controls Over Contractor Payments for the S8l Technology
 ComPODCDt Need Improvement" final report. The Procurement Direccorate is in the process of
 establishing and aligning invoice approval procedures based on "lessons learned," a recent
 reorganization, and the need to manage prescribed time lines to avoid laic payment interest pellalties.
 Also, CBP is improving the awareness afthe ris1:::s associated with the various contrac:l types through
 its DeW COTR Management Program. announced in April 2011, 10 Contracting Officers (COS) and
 Contracting Officer Technical Representatives (CQTRs).

 CBP has established an integrated project team (lP1) who arc currently drafting a directive to outline
 the invoice review and approval process, which will include identifying risk-based steps for various
 contract types. The directive will also focus on timeliness ofinvoice receipt, review and proper
 handling through the payment process. The IPT is currently analyzing the invoice receipt through
 payment process. Upon determining the most effective process it will be included in the CBP
 directive. A CSP-wide communication plan will also be developed after the directive is approved and
 issued to ensure all CBP stakeholders and procurement penonnel Wldcrstand the invoice review and
 approval process.

 Due Dlte: August 31, 2011

 Recommendation #4: Develop a reminder notification process to warn appropriate offices that
 invoices are due.

 CBP Response: Concur. CBP iscurrcntly conrdinating with our Financial Management Office to
 dctcn:ninc if SAP, CBP's financial system, can be programmed to sc:od reminder notices 10 the
 appropriate personnc1 regarding the invoice payment due dates. This remi~ notice will also be
 included in the directive if SAP has the capability.

 Due Dlle: August 31, 2011

 Recommendation #5: Require contractors to infonn the Contracting Officer if they override the
 automated purchasing system.

  eRP Response: Non-eoncur. DHS does not concur with this recommendation. This
  recommendation would require contractors to infonn the Contracting Officer if they override the
  automated p~asing system (this would involve a change to the regulations, which in turn would
  require following the regulatory process). As discussed above, we do not believe this was an issue in
  the subcontractor selection. CBP was fully aware of the price differential and the contractor's rationale
, for selecting the lrigher priced subcontractor. Thus, the deficiencies in the review of the subcontract
  did not have any material relationship to the contractor's decision to override the automated purchasing
  system.

 If a recommendation is included., we recommend it read as follows:

    Emphasize the importmrt:e o/the contrtu::ting ojJieer's responsibility to adeqUO/ely review a consent
    request and supporting data, including the conlTactor's C05t or price ana1~i.s 0/subcontracts.




                 U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                                        Support of the Secure Border Initiative 


                                                          Page 20
 

 Appendix B
 Management Comments to the Draft Report

Note that iftbe recommendation is rewritten as DHS leconnnends, lhen DHS will oon<:ur with the
rec:ommmdatiOD (and has already implemented that reoommendatioa via oW" acquisition alen).

                                             ••••••••••••••
With regard to the classification of the rqxn1, CBP has identified information within this report that
warrants a "POI" Official Use Only" classification. CBP's technical and sensitivity comments related to
the infonnation included in the drafl.T~rtan; included in Attachment A.

Once again. lhmk you for the opportunity to comment 00 the draft report. CBP looks forward to
working with you on future homeland security engagements. If you have any questions regarding this
response, please oontact me or have a member of your staff oontaa Ms. Lynn Richardson, CBP Audit
Liaison, Office of Internal Affairs, at (202) 344·2953.

Attaclunents:

See Attachment A for teclmical comments and sensitivity review.
See Attachment B for procurement supporting documentation.
See Attachment C for fence toolbox and 001149 supporting documentation.




                U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in 

                                       Support of the Secure Border Initiative 


                                                        Page 21
 

Appendix C
Major Contributors to this Report

                       Linda Howard, Director
                       Sean Pettersen, Audit Manager
                       Lindsey Koch, Auditor-in-Charge
                       Peter Christopher, Program Analyst
                       Apostolos Exarchos, Program Analyst
                       Thomas Hamlin, Program Analyst
                       Edwin Soto, Program Analyst




           U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in
                                  Support of the Secure Border Initiative 


                                                  Page 22
 

Appendix D
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs
                       CBP Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




           U.S. Customs and Border Protection’s Management of the Purchase and Storage of Steel in
                                  Support of the Secure Border Initiative 


                                                  Page 23
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
